U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




National Telecommunications
             and Information
              Administration

          Nevada Public Safety
                  Interoperable
        Communications Grant
PSIC Award No. 2007-GS-H7-0015

             Final Audit Report No. DEN-19431
                               September 2009




    FOR PUBLIC RELEASE



            Denver Regional Office of Audits
U.S. Department of Commerce                                                               Final Audit Report DEN-19431
Office of Inspector General                                                                             September 2009


                                                       CONTENTS

                                                                                                                         Pages

Introduction ................................................................................................................... 1 
Findings and Recommendations ................................................................................... 2 
   I. Investment Justification on Schedule................................................................... 2 
   II. Matching Share Requirement in Process ............................................................. 5 
   III. Compliance with Grant Terms and Conditions .................................................. 6 
      A.  Financial Status Reporting Requirement Has Been Met .............................. 6 
      B.  DEM Did Not Comply with Cash Drawdown Requirements ........................ 7 
      C.  DEM Complied with 80 Percent Pass-Through Requirement ....................... 8 
   IV. Reasonable and Allowable Costs Claimed .......................................................... 9 
   V. Prior DEM Audit Recommendations .................................................................... 9 
   VI. Best Practices ..................................................................................................... 10 
Summary of Agency Response and OIG Comments .................................................. 12 
Appendix A: Objectives, Scope, and Methodology ...................................................... 13 
Appendix B: Summary Source and Application of Funds .......................................... 15 
Appendix C: Summary of Financial/Compliance Audit ............................................. 16 
U.S. Department of Commerce                                                  Final Audit Report DEN-19431
Office of Inspector General                                                                September 2009


                                             INTRODUCTION

On September 30, 2007, the National                                       PSIC Program
Telecommunications and Information
Administration (NTIA) awarded a                           The Digital Television and Public Safety Act of
$12,042,417 Public Safety Interoperable                   2005 authorized NTIA, in consultation with
                                                          DHS, to implement the PSIC program ─ a $1
Communications (PSIC) grant to the                        billion one-time, formula-based matching grant
state of Nevada to enhance                                program intended to enable public safety
interoperable emergency                                   agencies to establish interoperable emergency
communications. NTIA required a                           communications systems using reallocated
minimum 20 percent matching share, or                     radio spectrum.
$2,516,054, (the Department of Public                     NTIA signed a memorandum of understanding
Safety’s Division of Emergency                            with DHS, under which DHS oversees and
Management’s (DEM’s) budgeted                             administers the PSIC program.
amount in its investment justification is
$2,516,060) from nonfederal sources for                   The Implementing Recommendations of the
                                                          9/11 Commission Act of 2007 requires the
the acquisition and deployment of                         Commerce Inspector General to conduct
communications equipment, and                             financial audits, over 4 years, of a
management and administrative costs.                      representative sample of at least 25 states or
The project period runs from October 1,                   territories receiving PSIC grants. The Nevada
2007, to September 30, 2010, by which                     grant program is among the first audits under
                                                          this requirement.
time all funds must be expended.

The governor of Nevada designated
DEM as Nevada’s state administrative
agency to apply for and administer PSIC funds.1

In November 2008, we initiated an audit of costs claimed by DEM to determine
whether it had complied with NTIA PSIC grant guidelines and Department of
Homeland Security (DHS) award terms and conditions. The audit covered the
award period of October 1, 2007, through December 31, 2008, during which time the
recipient claimed total costs of $605,113. In general, we found the recipient to be in
compliance with requirements and on track to complete the project on time.




1 The PSIC program requires the governor of each state and territory to designate a state administrative agency
to apply and administer PSIC funds. Administrative agencies are required to pass through no less than 80
percent of the total award amount to local or tribal governments or authorized nongovernmental public safety
agencies, unless the local entity opts, via written agreement, to have the state agency retain and spend the
funds on its behalf. Grantees must meet a 20 percent nonfederal match for acquisition and deployment.




                                                      1
    U.S. Department of Commerce                                Final Audit Report DEN-19431
    Office of Inspector General                                              September 2009


                              FINDINGS AND RECOMMENDATIONS

    I. Investment Justification on Schedule

    DEM prepared an investment justification based on the NTIA PSIC Investment
    Justification Reference Guide (dated September 2007) that detailed individual
    communications projects intended to (1) achieve meaningful and measurable
    improvements in interoperability, and (2) fill gaps identified in the statewide
    communications interoperability plan. The investment justification had a total of
    six investments (table 1) and was approved on June 25, 2008. DEM anticipates
    completing all six by September 30, 2010.

                     Table 1. Investment Justification and Funding

                                                             Nonfederal
                                          PSIC Funds           Match
 PSIC Investment Justification             Awarded           (Budgeted)            Total
1. Core Nevada Radio Systems
Internet Protocol (IP)-Based
Connectivity                          $     5,114,182    $    1,236,046       $     6,350,228
2. Statewide Interoperability
Training and Exercise                       1,142,000                               1,142,000
3. Nevada Department of Public
Safety/Las Vegas Metropolitan
Police Radio-to-Radio
Interoperability                            2,398,560          599,640              2,998,200
4. Statewide Hospital/Rural
Interoperability Communication              1,000,000          140,000              1,140,000
5. Multicounty Ethernet
Microwave Interconnect                      1,196,000          244,450              1,440,450
6. STR-Mobile Interoperability and
Satellite Communications Vehicles
and Emergency Operations Center
Radio Cache                                  932,668           231,172              1,163,840

 Management and Administration             259,007               64,752               323,759
               Total                $ 12,042,417         $    2,516,060       $    14,558,477
Source: Nevada’s Approved Investment Justification

    States were required to include a Strategic Technology Reserve (STR) in their
    justifications, designed to pre-position interoperable communications or secure
    them in advance for immediate deployment in an emergency situation or major
    disaster. Nevada’s Strategic Technology Reserve is investment 6.



                                              2
U.S. Department of Commerce                                       Final Audit Report DEN-19431
Office of Inspector General                                                     September 2009


Investment 1: Core Nevada Radio Systems IP-Based Connectivity

DEM subgranted $5,114,182 in PSIC funds to Clark County Emergency
Management and Homeland Security for this project, which requires a matching
share of $1,236,046 from nonfederal sources. There are currently four core radio
systems in Nevada. This investment will allow for the purchase and installation of
four IP-based radio networking switches along with the necessary fiber and
microwave IP network connectivity to tie the existing radio systems to Clark
County. The project is on track to be completed by September 30, 2010.

Investment 2: Statewide Interoperability Training and Exercise

DEM retained $1,142,000 in PSIC funds for this investment, which requires no
match and is intended to establish an integrated program of training, drills, and
exercises to give interoperability equipment users and operators consistent,
standardized knowledge and ability. At the time of our audit fieldwork, DEM had
not expended any funds for this investment. The activity is scheduled to be
completed by September 30, 2010.

Investment 3: Nevada Department of Public Safety/Las Vegas Metropolitan Police
Radio-to-Radio Interoperability (two projects, 3A and 3B)

   1. Project 3A called for procuring 200 dual-band mobile
                                                                      Project 25 (P25) is a set of
      radios to establish radio-to-radio interoperability             national standards for
      between the Nevada Department of Public Safety’s                manufacturing
      Highway Patrol Division and the Las Vegas                       interoperable digital two-
      Metropolitan Police: the highway patrol division used           way wireless
                                                                      communications products.
      $608,000 in PSIC funds to purchase 160 Radios. As its           Radio equipment that meets
      matching share, it purchased another 40 radios. The             P25 standards can
      radios are now being deployed to enable the Highway             communicate with any
      Patrol to interoperate with a multiband/multimode 700           other P25 system,
                                                                      regardless of vendor,
      MHz, IP-based, P25-capable radio system recently                enabling users of different
      installed by the Las Vegas Metropolitan Police. (The            systems to talk via direct
      division had no interoperability with the police or other       radio contact.
      public agencies in the southern part of the state prior to
      this project.) This project is on track to meet its completion date.

   2. Project 3B called for the Las Vegas Metropolitan Police to purchase
      equipment to enable interoperable communications among itself, the Nevada
      Department of Public Safety, and other agencies throughout the state. The
      police department used $1,790,560 in PSIC funds to purchase 455 dual-band
      mobile radios and 455 antennas. As its matching share, it purchased another
      990 dual-band mobile radios and 290 motorcycle mounts. The radios are now
      being programmed and installed. This project is scheduled for completion by
      September 30, 2010.


                                              3
U.S. Department of Commerce                               Final Audit Report DEN-19431
Office of Inspector General                                             September 2009




              Source: Dual-band radios purchased with PSIC funds by
              the Las Vegas Metropolitan Police Department

Investment 4: Statewide Hospital/Rural Interoperability Plan (two projects, 4A
 and 4B)

   1. Project 4A is intended to develop a statewide comprehensive plan and
      reliable communications for Nevada’s hospitals to improve emergency
      response. DEM awarded a PSIC subgrant for $725,000 to Clark County
      Emergency Management and Homeland Security, which in turn signed an
      “interlocal” agreement with the Nevada Hospital Association to implement
      the project. A matching share of $87,000 from nonfederal sources is required,
      but the hospital association provided an in-kind match valued at $100,000,
      which resulted in an overmatch of $13,000. This project is scheduled to be
      completed by September 30, 2010.

   2. Project 4B is for future system planning and engineering for rural very high
      frequency (VHF). The project will define current capabilities as well as
      develop guidance for local entities that need to move from conventional wide-
      band operations to an interoperable P25 compatible narrow-band radio
      system. The Elko County Sheriff's Department received a $275,000 PSIC
      subgrant to conduct the project, which requires a nonfederal matching share
      of $55,000. This project is scheduled to be completed by September 30, 2010.

Investment 5: Multicounty Ethernet Microwave Interconnect

DEM subgranted $1,196,000 in PSIC funding to construct an Ethernet microwave
backbone connecting 20 repeater sites and one building within Lyon, Story, Carson,
and Douglas counties. The backbone will interconnect six law enforcement agencies,
nine fire/EMA agencies, two tribal public safety agencies, and four emergency


                                         4
U.S. Department of Commerce                               Final Audit Report DEN-19431
Office of Inspector General                                             September 2009


management departments. The project’s start was delayed, but DEM anticipates it
will be completed by September 30, 2010.

Investment 6: STR-Mobile Interoperability and Satellite Communications Vehicles
and Emergency Operations Center Radio Cache (two projects, 6A and 6B)

   1. Project 6A was for the purchase of portable communications interoperability
      systems for use at or near the scene of an emergency. DEM purchased three
      vehicles, which were being deployed at the time of our fieldwork. The project
      received $721,331 in PSIC funds and required a nonfederal match of
      $200,000.

   2. Under project 6B, the Washoe County Division of Emergency Management
      and Homeland Security purchased an 800 MHz radio repeater and portable
      radios with 700/800 MHz frequency bands. The equipment was to be paid for
      with $211,337 in PSIC funds and a nonfederal matching share of $31,172.


II. Matching Share Requirement in Process

In its approved investment justification, DEM budgeted the required 20 percent
matching share from nonfederal sources for the acquisition, deployment, and
management and administration of interoperable communications equipment. The
match is required by The Digital Television Transition and Public Safety Act of
2005, Public Law 109-171, Section 3006, the PSIC Grant Program Guidance and
Application Kit, and the special award conditions.

We reviewed the status of DEM’s match requirements. DEM and its subgrantees
receiving PSIC funds are in the process of documenting the 20 percent match for
each investment, which are budgeted to be met via cash and in-kind contributions.
DEM’s overall 20 percent match requirement equals $2.5 million. We determined
that it had committed all match, but it had not documented $1.29 million for
investments 1 and 4B.




                                         5
U.S. Department of Commerce                                   Final Audit Report DEN-19431
Office of Inspector General                                                 September 2009


                           Table 2. Status of Matching Share

                                                              Committed but
                                                 Budgeted     Undocumented
         Project #         PSIC Funds             Match          Match
             1           $ 5,114,182           $ 1,236,046    $ 1,236,046
             2           $ 1,142,000           $              $
            3A           $    608,000          $   599,640a   $
            3B           $ 1,790,560           $              $
            4A           $    725,000          $   140,000b   $
            4B           $    275,000          $              $    55,000
             5           $ 1,196,000           $   244,450    $
            6A           $    721,331          $   200,000    $
            6B           $    211,337          $    31,172    $
          M&A            $    259,007          $    64,752    $
           Total         $ 12,042,417          $ 2,516,060    $ 1,291,046
       a Budgeted   amount is for 3A and 3B.
       b Budgeted   amount is for 4A and 4B.

       Source: Nevada’s Approved Investment Justification and DEM documents

NTIA’s PSIC Program Guidance and Application Kit, section VI (B), requires the
match to be expended at the same rate as the federal share. As of December 31,
2008, DEM had expended $605,113 in federal funds, but it had not claimed
matching share expenditures on this amount, which would have totaled $150,234
(25 percent of $600,937 less $4,176 for planning and training, which do not require
a match).

Recommendations

We recommend that the NTIA Assistant Secretary for Communications and
Information, in conjunction with the Federal Emergency Management Agency
(FEMA) Grant Programs Directorate, requires DEM to (1) document all committed
matches, and (2) demonstrate that it has contributed the 20 percent matching share
for PSIC expenditures by the next quarterly financial status report.

III. Compliance with Grant Terms and Conditions

A. Financial Status Reporting Requirement Has Been Met

We reviewed the financial status reports (Standard Form 269) filed by DEM for the
period of October 2007 through December 2008. The PSIC Grant Program Guidance
and Application Kit states that these reports must be filed within 30 days of the end


                                               6
U.S. Department of Commerce                                           Final Audit Report DEN-19431
Office of Inspector General                                                         September 2009


of each calendar quarter for every quarter the award is active, including partial
calendar quarters and periods during which no grant activity occurs. Nevada
submitted all of its financial status reports within the 30-day time period.

B. DEM Did Not Comply with Cash Drawdown Requirements

The PSIC Grant Program Guidance and Application Kit, Section VI, Part B, Page
31, states that grantees should draw down funds as close to expenditure as possible,
up to 30 days prior to expenditure/reimbursement to avoid accruing interest. Funds
received by grantees must be placed in an interest-bearing account, and if not
expended in 30 days, interest earned must be remitted to the U.S. Department of
Treasury. We selected 3 of Nevada’s 10 cash drawdowns to verify compliance with
the 30-day rule. Two of the three drawdowns we tested were in compliance;
however, we found one drawdown where DEM exceeded 30 days drawing down
funds prior to an expenditure or disbursement. On May 5, 2008, DEM drew down
$526,541 to pay for three STR vehicles for investment 6A ($525,259) and other
expenses ($1,282). However, due to a delay in receiving the vehicles, they were not
paid for until November 7, 2008, and January 20, 2009.

DEM did not place the drawdown funds of $525,259 for the vehicles in an interest-
bearing account, as required by PSIC regulations, and as a result, we determined
imputed interest of $5,348 is due to the government.2 States are allowed to retain
$100 per year for administrative expenses for all federal grants combined; however,
we allowed the full $100 for simplicity of calculations, which results in $5,348 funds
put to better use (see table 3).




2Pursuant to 31 CFR, Section 205.19(b), interest on advances of funds not placed in interest-bearing
accounts is due the government, based on the average of the U.S. Treasury Department’s 13-week
Treasury Bill rate during the state’s fiscal year.


                                                 7
U.S. Department of Commerce                                             Final Audit Report DEN-19431
Office of Inspector General                                                           September 2009


                                   Table 3. Imputed Interest

                                                         No. of      Interest
                                  Drawdown                Days       Rate for Imputed
         Time Period
                                   Amount               Interest       the    Interest
                                                       Incurred       Period
       May 5, 2008–
       June 30, 2008                $525,259               56/360       1.9%          $1,552
       July 1, 2008–
       November 7,
       2008                          525,259              130/360       1.6%            3,035
       November 8, 2008
       –January 20,
       2009                          419,010               74/360       1.0%             861
       Total                                                                          $5,448
       Less: $100 of
       Retained Interesta                                                                $100
       Imputed Interest
       Owed by DEM                                                                    $5,348
      a States   may retain $100 per year for administrative expenses for all federal grants combined.

      Source: DEM documents and computations based on treasurydirect.gov 13-week Treasury Bill
      rates

Recommendations

We recommend that the NTIA Assistant Secretary for Communications and
Information, in conjunction with the FEMA Grant Programs Directorate, require
DEM to (1) monitor cash drawdowns, (2) put funds not spent within 30 days in an
interest-bearing account, and (3) return imputed interest of $5,348 to the U.S.
Department of Treasury.

Funds to Be Put to Better Use

The return of imputed interest on the advance drawdown of $525,259 PSIC funds
will permit $5,348 to be put to better use.

C. DEM Complied with 80 Percent Pass-Through Requirement

DEM passed through $9.9 million (82 percent) of the $12 million in PSIC federal
funds, exceeding the 80 percent pass-through requirement stated in the PSIC Grant
Program Guidance and Application Kit.




                                                   8
U.S. Department of Commerce                                Final Audit Report DEN-19431
Office of Inspector General                                              September 2009


States are also required to pass through PSIC funds to local or tribal applicants
within 60 days after approval of an investment justification. DEM complied with
this requirement as well (see table 4).

                        Table 4. DEM’s Pass-Through Activity


                       Total Pass-           State Funds
                         Through              Retained              Total Federal Funds
 Investment 1        $5,114,182                                          $5,114,182
 Investment 2                                  1,142,000                   1,142,000
 Investment 3           2,398,560                                          2,398,560
 Investment 4           1,000,000                                          1,000,000
 Investment 5           1,196,000                                          1,196,000
 Investment 6             211,337                721,331                     932,668
 M&A Costs                                       259,007                     259,007
   Total            $9,920,079 (82 %)         $2,122,338 (18%)          $12,042,417 (100%)

Source: DEM documents

Six awards (investments 1, 3A, 3B, 4A, 5, and 6B) were passed through to
subrecipients within 60 days of investment justification approval; however, pass-
through for one award—$275,000 to the Elko County Sheriff’s Department
(investment 4B)—took 126 days. We accepted DEM’s explanation that this was due
to a change in the subrecipient.

DEM retained $2.1 million (18 percent) to complete statewide training (investment
2) and one STR project (investment 6A), and for management and administration
costs.

IV. Reasonable and Allowable Costs Claimed

DEM claimed costs of $605,113 on the December 31, 2008, financial status report.
We determined that the costs claimed were reasonable, allowable, and allocable
according to PSIC grant regulations (see appendix C).

V. Prior DEM Audit Recommendations

We met with the Nevada legislative auditor to discuss our audit of the PSIC grant
at DEM. We reviewed the state’s single-audit report for the year ended June 30,
2007, and found no issues that would materially affect the PSIC grant program.




                                         9
U.S. Department of Commerce                                 Final Audit Report DEN-19431
Office of Inspector General                                               September 2009


We also reviewed a 2008 report of an audit of DEM conducted by the legislative
auditor’s office for the period July 1, 2005, through December 31, 2006, including
certain activities through June 30, 2007. Although the PSIC program was not part
of the audit, we reviewed the report for issues that could have a direct and material
effect on the program and identified two items:

   1. DEM did not have an effective process to track emergency equipment
      purchased by state and local agencies for one of its federal grant programs.

   2. DEM had not established management controls to help ensure compliance
      with state and department policies and procedures.

DEM told us it is in the process of completing a set of procedures relating to the
location and use of the three STR vehicles. The agency also hired an individual
solely to manage the PSIC grant. Our review of DEM PSIC files indicates that
agency oversight of the grant is adequate.

VI. Best Practices

We found several notable practices in DEM’s administration of the PSIC program:

    1. Its documentation of funding and spending was in very good order, which
       facilitated the audit process.

    2. The decision to hire an individual to oversee only the PSIC grant and
       subgrantees enabled the agency to establish a good oversight mechanism.
       The individual is organized and committed to safeguarding PSIC funds.

    3. DEM is committed to ensuring that no PSIC funds are disbursed to
       subrecipients without proper and complete documentation of expenditures
       and match. DEM will not accept requests for reimbursement from
       subgrantees whose spending documentation is insufficient. Its PSIC files
       contained e-mail correspondence requesting such information when
       necessary. In addition, the agency management thoroughly reviews
       subgrantee documentation prior to reimbursement.




                                          10
U.S. Department of Commerce                              Final Audit Report DEN-19431
Office of Inspector General                                            September 2009


                  SUMMARY RESULTS OF FINANCIAL AUDIT

The results of our interim cost audit for the period October 1, 2007, through
December 31, 2008, which are detailed in appendix C, are summarized as follows:


Federal Funds Disbursed                   $605,113
Costs Incurred                $605,113
Less: Questioned Costs               0
Costs Accepted                 605,113
Less Imputed Interest            5,348
Less Matching Share                  0
Federal Funds Earned                          599,765

Refund Due the Government                     $ 5,348




                                         11
U.S. Department of Commerce                                Final Audit Report DEN-19431
Office of Inspector General                                              September 2009


               SUMMARY OF AGENCY RESPONSE AND OIG COMMENTS

DEM did not provide a response to our draft audit report, which was due August 10,
2009. We contacted DEM to determine if it was going to respond. DEM replied that
it accepts our draft audit report as written. Therefore, we reaffirm our findings and
recommendations.

NTIA pointed out to us that we made an error in calculating the match on page 8 of
our draft audit report because we included planning and training costs in our match
calculation, and those costs do not require a match. We corrected the error in this
final report, and the recalculation does not affect our findings.




                                         12
U.S. Department of Commerce                               Final Audit Report DEN-19431
Office of Inspector General                                             September 2009


               APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the Nevada Department of
Public Safety, Division of Emergency Management’s use of PSIC grant funds met
federal requirements. In particular, we assessed whether DEM (1) is on track to
complete its interoperable communications investments by September 30, 2010; (2)
met the 20 percent match for acquiring and deploying interoperable
communications equipment; (3) claimed reasonable and allowable costs under the
award; and (4) complied with grant terms and conditions.

The audit scope included a review of costs claimed during the award period of
October 1, 2007, through December 31, 2008. We conducted our audit fieldwork
from November 2008 through January 2009 at DEM in Carson City, Nevada, and at
subrecipient sites in Reno, Las Vegas, and Minden, Nevada.

To meet our objectives, we

   •   reviewed investment documentation and discussed each investment with
       officials from DEM and officials overseeing several of the individual
       investments;
   •   analyzed source documents related to the minimum 20 percent match for
       acquiring and deploying interoperable communications equipment;
   •   traced costs claimed to source documentation;
   •   interviewed DEM officials, including the Nevada state legislative auditor,
       and reviewed the state's OMB Circular No. A-133 audit report for the year
       ending June 30, 2007, and a Nevada State Legislative audit report on DEM
       dated September 10, 2008; and
   •   reviewed pertinent laws, regulations, and guidance (listed below) against
       DEM’s PSIC activities and internal controls.

Laws/Regulations Reviewed:

   •   Section 3006 of the Digital Television Transition and Public Safety Act of
       2005, Public Law 109-171
   •   Call Home Act of 2006, Public Law 109-459
   •   Implementing Recommendations of the 9/11 Commission Act of 2007, Public
       Law 110-53
   •   PSIC Grant Program Guidance and Application Kit, August 16, 2007
   •   NTIA PSIC Grant Program Allowable Cost Matrix
   •   NTIA PSIC Grant Program Frequently Asked Questions
   •   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
       Governments
   •   OMB Circular A-133, Compliance Supplement, CFDA 11.555
   •   Special award conditions


                                        13
U.S. Department of Commerce                                Final Audit Report DEN-19431
Office of Inspector General                                              September 2009


   •   Department of Commerce Financial Assistance Standard Terms and
       Conditions
   •   DHS, Office of Grant Operations, Financial Management Guide

We verified the validity and reliability of computer-processed data supplied by DEM
by the direct test of data against supporting documentation. Based on our tests, we
concluded the computerized data was reliable for use in meeting our objectives.

We performed this audit under authority of Implementing Recommendations of the
9/11 Commission Act of 2007, the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, August 31, 2006; and in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                         14
U.S. Department of Commerce                                Final Audit Report DEN-19431
Office of Inspector General                                              September 2009


            APPENDIX B: SUMMARY SOURCE AND APPLICATION OF FUNDS


              NEVADA DEPARTMENT OF PUBLIC SAFETY,
               DIVISION OF EMERGENCY MANAGEMENT
          PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS
                   GRANT NUMBER 2007-GS-H7-0015
            OCTOBER 1, 2007, THROUGH DECEMBER 31, 2008


                                    Approved                   Receipts &
                                     Budget                    Expenses
                                       (a)                        (b)
SOURCE OF FUNDS:

Federal                              $12,042,417               $605,113
Nonfederal                             2,516,060                      0

Total                                $14,558,477               $605,113

APPLICATION OF FUNDS:

Investment 1                         $ 6,350,228               $         0
Investment 2                           1,142,000                     1,142
Investment 3A                          1,207,640                         0
Investment 3B                          1,790,560                         0
Investment 4A                            865,000                         0
Investment 4B                            275,000                         0
Investment 5                           1,440,450                         0
Investment 6A                            921,331                   528,293
Investment 6B                            242,509                         0
M&A Costs                                323,759                    75,678

Total                                $14,558,477               $605,113


Notes:

(a) Approved budgeted costs are for the period of October 1, 2007,
    through September 30, 2010, based on Nevada’s approved
    investment justification.
(b) Receipts and expenses are for the period of October 1, 2007,
    through December 31, 2008.




                                         15
U.S. Department of Commerce                                 Final Audit Report DEN-19431
Office of Inspector General                                               September 2009


             APPENDIX C: SUMMARY OF FINANCIAL/COMPLIANCE AUDIT

              NEVADA DEPARTMENT OF PUBLIC SAFETY,
               DIVISION OF EMERGENCY MANAGEMENT
          PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS
                   GRANT NUMBER 2007-GS-H7-0015
            OCTOBER 1, 2007, THROUGH DECEMBER 31, 2008


                                                            Results of Audit
                              Approved         Costs        Costs         Costs
 Description                   Budget       Claimed        Questioned    Accepted

Investment 1                   $6,350,228    $         0           0     $         0
Investment 2                    1,142,000          1,142           0           1,142
Investment 3A                   1,207,640              0           0               0
Investment 3B                   1,790,560              0           0               0
Investment 4A                     865,000              0           0               0
Investment 4B                     275,000              0           0               0
Investment 5                    1,440,450              0           0               0
Investment 6A                     921,331        528,293           0         528,293
Investment 6B                     242,509              0           0               0
M&A Costs                         323,759         75,678           0          75,678

Total                         $14,558,477    $605,113            $0       $605,113




Federal Funds Disbursed                      $605,113
Costs Incurred                  $605,113
Less: Questioned Costs                 0
Costs Accepted                   605,113
Less Imputed Interest              5,348
Less Matching Share                    0
Federal Funds Earned                             599,765

Refund Due the Government                    $     5,348




                                            16
